HHS/OIG, Audit -"Review of Medicaid School-Based Services Claimed During State Fiscal Year 2000 by Maryland's Medicaid Program,"(A-03-01-00224)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid School-Based Services Claimed During State Fiscal Year 2000 by Maryland's Medicaid Program," (A-03-01-00224)
March 31, 2003
Complete
Text of Report is available in PDF format (852 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Medicaid costs claimed for school-based health services by Maryland's
Department of Health and Mental Hygiene (DHMH) were reasonable, allowable, and adequately supported in accordance with
the terms of applicable federal regulations and the state Medicaid plan.  We identified internal control weaknesses
that need to be corrected to ensure that Maryland's school-based payment rates are based on actual costs of providing medical
services and service providers appropriately submit and document Medicaid claims for school-based health care services.  Our
review of payments in 100 randomly selected recipient/months showed that DHMH billed the Medicaid program:  (1) when
providers were not qualified to render the service; (2) for services that were not approved in the state plan; (3) when
the student was absent or the service did not occur with the appropriate participant; (4) for services that were not authorized
or authorized Medicaid service on the same day; and (6) for services that were insufficiently documented.  Based on
a projection of the statistical sample, we estimated overpayments to be approximately $20 million in federal Medicaid matching
funds.